COCKLE

2311 Douglas Street i f s E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga I B Eagan contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 21-159

W. CLARK APOSHIAN, Petitioner
v.
MERRICK B. GARLAND, ATTORNEY GENERAL, ET AL.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of September, 2021, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF DAMIEN GUEDES, SHANE RODEN, FIREARMS,
POLICY FOUNDATION, MADISON SOCIETY FOUNDATION, INC., AND FLORIDA CARRY, INC. AS AMICI
CURIAE SUPPORTING PETITIONER in the above entitled case. All parties required to be served have been served by
third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
ERIK S. JAFFE
Counsel of Record
JOSHUA J. PRINCE
SCHAERR|JAFFE LLP
1717 K Street, NW, Suite 900
Washington, DC 20006
(202) 787-1060
ejaffe@schaerr-jaffecom

Subscribed and sworn to before me this 3rd day of September, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

         

hess Oudiw-h, Gh lhe

Affiant

 

Sener ons
RENEE J. GOSS
My Comm. Exp. September 6, 2023,

 

3

 

Notary Public
 

Attorneys for Petitioner

Charles Justin Cooper Cooper & Kirk, PLLC 202-220-9600
Counsel of Record 1523 New Hampshire Avenue, N.W.
Washington, DC 20036

ccooper@cooperkirk.com

Party name: W. Clark Aposhian

 

Attorneys for Respondents

Brian H. Fletcher Acting Solicitor General 202-514-2217

United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001

Counsel of Record

SupremeCtBriefs@USDOJ.gov

Party name: Merrick Garland, Att'y Gen., et al.

 
